No. 19-123

 

 

In THE
Supreme Court of the Anited States

SHARONELL FULTON, ET AL.., Petitioners,

v.

CITY OF PHILADELPHIA, ET AL., Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

BRIEF OF BAPTIST JOINT COMMITTEE FOR RE-
LIGIOUS LIBERTY, THE PRESIDING BISHOP OF
THE EPISCOPAL CHURCH, GENERAL SYNOD OF
THE UNITED CHURCH OF CHRIST, AND THE
EVANGELICAL LUTHERAN CHURCH IN
AMERICA AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,310 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2020.

Colin Casey we

Wilson-Epes Printing Co., Inc.
